February 29, 2000

GEORGE L. LOPEZ
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBJECT:     Transmittal of Audit Report –Southwest Area Expenditures for Extra
             Highway Trips Using Leased Equipment
             (Report Number TR-AR-00-005)

This report presents the results of our audit of leased equipment for extra highway trips
under the Southwest Area’s service improvement initiative (Project No.
00PA020TR000). This audit was conducted to determine whether payments to
contractors who leased equipment for extra trips under the Southwest Area’s service
improvement initiative were reasonable and appropriate.

The audit revealed that excessive payments were made to highway contractors who
leased equipment to provide extra trip service. We are recommending the Postal
Service recover approximately $848,000 in overpayments and correct contracting
practices to avoid excessive expenditures in the future. Management agreed with our
findings and recommendations, but disagreed with the magnitude of overpayments
reported. Management’s comments are included, in their entirety, in Appendix B.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Debra Ritt,
director, Transportation, at (703) 248-2300.


//Signed//
Richard F. Chambers
Assistant Inspector General
  for Performance

Attachment

cc: A. Keith Strange
    Sylvester S. Black
    J. Dwight Young

    Anthony M. Pajunas 

    John R. Gunnels 

Southwest Area Expenditures for                                    TR-AR-00-005
 Extra Trips


                                  TABLE OF CONTENTS
Part I
Executive Summary
                                                    i


Part II 

Introduction                                                          1

   Background                                                        1
   Objectives, Scope, and Methodology                                 1

   Prior Audit Coverage                                              2



Audit Results

   Reasonableness and Appropriateness of Extra Trip Expenditures     3

   Recommendations                                                   4


Appendix A. Calculation of Monetary Benefits                         6

Appendix B. Management’s Comments                                     7





                                     Restricted Information
Southwest Area Expenditures for                                                                             TR-AR-00-005
 Extra Trips


                                           EXECUTIVE SUMMARY
Introduction                          In April 1997 the Southwest Area Distribution Networks
                                      office established an initiative to improve transportation
                                      service between the Dallas Bulk Mail Center and other
                                      Texas locations. To meet the requirements of this initiative
                                      the Postal Service procured extra trips from contractors,
                                      many of whom used leased equipment to provide the
                                      service. The objective of the audit was to determine
                                      whether extra trip payments to contractors who leased
                                      equipment were reasonable and appropriate.

Results in Brief                      Contracting officials in the Southwest Area overpaid
                                      highway contractors approximately $848,000 for extra
                                      highway trips that operated between the Dallas Bulk Mail
                                      Center and other Texas locations from April 1997 to
                                      December 1999 as part of the area’s service improvement
                                      initiative. This amount included vehicle and operational
                                      costs, vehicle registration expenses, and taxes which
                                      contractors did not incur as a result of using leased
                                      equipment.

                                      Although required by postal policy, contracting officials did
                                      not negotiate rate adjustments for extra trip service or
                                      amend the contracts to authorize the use of leased
                                      equipment. Contracting officials told us they did not follow
                                      postal policy because they believed the extra trips would be
                                      short-term, as the service improvement initiative was a pilot
                                      program. Also, contracting officials were rushed to procure
                                      additional trips to meet operational goals of the service
                                      improvement initiative. However, after the service
                                      improvement initiative was extended, contracting officials
                                      did not reevaluate the reasonableness of the contract rate
                                      and the appropriateness of payments for leased equipment.
                                      As a result, the Postal Service continued to make excessive
                                      payments to contractors, 33 months after the service
                                      improvement program was initiated.1




1
    At the end of the 33-month period, December 1999, contractors still follow this practice for three of the six contracts.


                                                            i
                                                  Restricted Information
Southwest Area Expenditures for                                                   TR-AR-00-005
 Extra Trips



Summary of                   We recommend the vice president, Southwest Area direct
Recommendations              contracting officials to seek recovery of $848,000 in
                             overpayments for leased equipment between April 1997 and
                             December 1999. When equipment is leased for extra trips,
                             contracting officials should also determine whether
                             adjustments are needed in the contract rate and ensure
                             additional contract costs are properly authorized through
                             contract amendments. We further recommend contracting
                             officials review all other contracts where equipment was
                             leased for extra trips since April 1997 to determine whether
                             additional overpayments have occurred, and recover such
                             costs, as appropriate.

Summary of                   Management agreed with our findings and
Management’s                 recommendations, but disagreed with the magnitude of
Comments                     overpayments reported. They believe only $410,000 of the
                             $848,000 should be recovered because the remaining
                             amount—repair costs and taxes—cannot be recovered
                             because they are estimated costs. Management indicated
                             they planned to assess the need for adjusting contract rates
                             when equipment is leased for extra trips, ensure any
                             additional extra trip costs are negotiated and properly
                             authorized, and review all contracts in which equipment was
                             leased and recover any overpayments.

Overall Evaluation of        Management’s comments are generally responsive to our
Management’s                 findings and recommendations, and actions taken and
Comments                     planned should correct the issues identified in the report.
                             However, we disagree with management’s estimate of the
                             overpayment. We believe the full $848,000 should be
                             recovered because contractors were paid for repairs and
                             taxes which were unsupported. Further, according to a
                             Purchasing official, four of the six contractors are continuing
                             to operate the same trips with leased equipment, but are
                             now being reimbursed only the contract rate for this service.




                                                ii
                                      Restricted Information
Southwest Area Expenditures for                                                     TR-AR-00-005
 Extra Trips


                                     INTRODUCTION
Background                   In April 1997 the Southwest Area Distribution Networks
                             office established a “Quality Service End-to-End” program to
                             improve transportation service between the Dallas Bulk Mail
                             Center and other Texas locations. To carry out the
                             objectives of the program, the Postal Service authorized
                             contractors to perform extra trips on existing highway
                             routes. Contractors who operated extra trips often leased
                             equipment to provide the Postal Service with the additional
                             service required.

                             Contracting guidelines specify that prior to procuring extra
                             trips, contracting officials are to negotiate the rate to be paid
                             for the additional service. If this is not possible, the policy
                             provides for the contractor to be paid the rate for regular
                             contract service. Since the regular contract rate includes
                             operating costs such as depreciation, repair, taxes, etc., it
                             assumes contractors will use contractor-owned or long-term
                             leased equipment. On those occasions where the regular
                             contract rate does not cover all costs, the contractor may,
                             with fully documented support, receive a lump sum
                             payment. For service or equipment not already delineated
                             in the contract, the contract must be modified or amended to
                             include the additional requirements.

Objective, Scope, and        The objective of the audit was to determine whether
Methodology                  payments to contractors who leased equipment for extra
                             trips under the Southwest Area’s service improvement
                             initiative were reasonable and appropriate. To meet this
                             objective we reviewed six contracts identified by the
                             Southwest Area where extra trips were made primarily with
                             leased equipment, and analyzed related payment records
                             for the 33-month period, April 1997 to December 1999. We
                             also interviewed Southwest Distribution Networks officials,
                             headquarters Purchasing and Materials, as well as
                             Networks Operations Management officials.

                             Our review was conducted between November 1999 and
                             February 2000 in accordance with generally accepted
                             government auditing standards and included tests of
                             internal controls, as were considered necessary under the
                             circumstances.




                                                1
                                      Restricted Information
Southwest Area Expenditures for                                              TR-AR-00-005
 Extra Trips


Prior Audit Coverage 	 In our September 29, 1999, report, Emergency and Extra
                       Trip Expenditures on Highway Routes (TR-AR-99-003), we
                       determined contracting officials did not negotiate special
                       rates for extra trips. Instead, they routinely used the regular
                       contract rate as allowed by contracting guidelines. This
                       practice resulted in excessive expenditures. Further,
                       contracting officials did not monitor extra trip costs to ensure
                       expenditures were reasonable.




                                             2
                                   Restricted Information
Southwest Area Expenditures for                                                                  TR-AR-00-005
 Extra Trips


                                           AUDIT RESULTS
Reasonableness and                Contracting officials overpaid highway contractors
Appropriateness of                approximately $848,000 for extra trips that were operated
Extra Trip                        between April 1997 and December 1999, to improve
Expenditures                      service between the Dallas Bulk Mail Center and other
                                  Texas locations (see Appendix A). This amount includes
                                  vehicle and operational costs, vehicle registration
                                  expenses, and taxes which contractors did not incur as a
                                  result of using leased equipment.

                                  According to Postal Service management instructions,2 the
                                  regular contract rate includes depreciation and interest paid
                                  on vehicles purchased or leased. Therefore, the Postal
                                  Service should have reimbursed contractors for either the
                                  contract rate or leased equipment costs, but not both.
                                  Because contractors incurred equipment lease costs to
                                  provide the additional service, the Postal Service was
                                  correct in reimbursing contractors for such costs.
                                  However, contracting officials should have adjusted the
                                  contract rate to exclude vehicle-related costs not incurred
                                  when contractors leased equipment. For example, the
                                  Postal Service reimbursed one contractor about $331,000
                                  for vehicle repair, maintenance, and other costs for
                                  equipment the contractor did not own.

                                  Contracting officials indicated they did not have time to
                                  negotiate an adjusted rate for extra trips because they had
                                  little time to procure the trips under the service
                                  improvement initiative. While this may have been the case,
                                  postal policy allows contracting officials to apply the regular
                                  contract rate for extra trip service in situations such as this.
                                  However, in addition to paying contractors the regular rate,
                                  contracting officials separately reimbursed contractors for
                                  leased equipment invoices. Paying leased equipment
                                  invoices without first assessing whether contractor
                                  expenses exceeded reimbursement under the contract was
                                  inappropriate and resulted in excessive payments.

                                  According to postal policy,3 contracting officials are
                                  required to negotiate rate adjustments and amend the
                                  contract when changes are made in service requirements
                                  such as adding leased equipment. However, contracting
2
    Management instructions – Economic Pay Adjustments for Highway and Inland Domestic Water Contracts.
3
    Management instruction – Highway Contracts—Negotiated Service Changes.


                                                       3
                                             Restricted Information
Southwest Area Expenditures for                                                  TR-AR-00-005
 Extra Trips


                             officials in the Southwest Area did not negotiate rate
                             adjustments or amend the contracts because they believed
                             the need for the extra trips was short term because the
                             service improvement initiative was just a pilot. Also,
                             contracting officials were rushed to provide additional
                             service improvements to meet operational goals. However,
                             after the service improvement initiative was extended,
                             contracting officials did not reevaluate the reasonableness
                             of the contract rate and the appropriateness of paying
                             contractors to lease equipment. As a result, the Postal
                             Service continued to make excessive payments to
                             contractors, 33 months after the service improvement
                             program was initiated.

Recommendations 	            We recommend the vice president, Purchasing and
                             Materials, direct contracting personnel in the Southwest
                             Area Distribution Networks office to:

                            1.	   Recover $848,000 in overpayments
                                  identified in this report and any additional
                                  amounts incurred subsequent to
                                  December 1999.

Management’s                 Management agreed with our finding and recommendation,
Comments                     but disagreed with the amount owed the Postal Service
                             from overpayments. Management indicated they have
                             initiated discussions with the contractors to determine the
                             additional costs, but believe the total possible recovery to
                             be $410,491 instead of $848,000.

                            2.	   Determine whether adjustments are needed in the
                                  contract rate when equipment is leased for extra trip
                                  service.

                             Management agreed with our findings, but indicated in
                             special circumstances, such as observed in our report, they
                             may not always be able to adjust the contract rate
                             immediately as we recommended. They added their
                             preference is to negotiate costs for extra trips prior to the
                             start of service.




                                                4
                                      Restricted Information
Southwest Area Expenditures for                                                   TR-AR-00-005
 Extra Trips



                            3.    Ensure all additional contract costs are properly
                                  authorized through contract amendments.

                             Management agreed with our recommendation and
                             indicated they will ensure all additional contract costs are
                             negotiated and properly authorized through contract
                             amendments.

                            4.	   Review all other contracts in which equipment was
                                  leased for extra trips and recover any overpayments,
                                  as appropriate.

                             Management agreed with the recommendation and
                             recently contacted each Distribution Networks Office to
                             ensure that documentation for all costs above the contract
                             rate is obtained and appropriate rate adjustments made.

Evaluation of                Generally, management’s actions taken and plans are
Management’s                 responsive to the issues identified in the report. However,
Comments                     we believe the full $848,000 should be recovered because
                             contractors were paid for repairs and taxes that were
                             unsupported. Management states repair costs and taxes
                             cannot be recovered because they are estimated costs.
                             While we recognize these costs are estimates, they
                             nonetheless were included in the rate paid to contractors.
                             Further, according to a Purchasing official, four of the six
                             contractors are continuing to operate the same trips, but
                             now are being reimbursed only the contract rate for this
                             service.




                                                5
                                      Restricted Information
Southwest Area Expenditures for                                                                         TR-AR-00-005
 Extra Trips


            APPENDIX A. CALCULATION OF MONETARY BENEFITS


                 Overpayments Resulting From Excessive Contract Rates4

                                                     Excess
                Contract                           Contract Rate                     Total
                Route # Miles Driven               Charges/Mile                  Overpayments

                  75124         1,295,332          X    0.25564193         =         $       331,141
                  75194           285,280          X    0.29219628         =         $        83,358
                  78650             7,806          X    0.09103852         =         $           711
                  75391           336,667          X    0.27150678         =         $        91,407
                  75192           690,611          X    0.26665484         =         $       184,155
                  75398           795,225          X    0.19771514         =         $       157,228
                                3,410,921                                            $       848,000




4
  Disallowable costs include vehicle costs from lines 1A(1) and (2); operational and repair costs from line 1B; taxes
from line 2; and vehicle registration costs from line 3.


                                                         6
                                               Restricted Information
Southwest Area Expenditures for                            TR-AR-00-005
 Extra Trips


                  APPENDIX B. MANAGEMENT’S COMMENTS 





                                            7
                                  Restricted Information
Southwest Area Expenditures for                            TR-AR-00-005
 Extra Trips




                                            8

                                  Restricted Information
Southwest Area Expenditures for                            TR-AR-00-005
 Extra Trips




                                            9

                                  Restricted Information
Southwest Area Expenditures for                            TR-AR-00-005
 Extra Trips




Major Contributors To
This Report




                                            10
                                  Restricted Information
